No. ________
MARCUS CONNER,
Petitioner,
v.
INDIANA,
Respondent.
PETITIONER’S APPENDIX
INDEX TO APPENDIX
Appendix A: Indiana Supreme Court Order Denying Transfer,
153 N.E.3d 1108 (Ind. September 24, 2020) (Table). ................. 2a
Appendix B: Conner v. State, 2020 Ind. App. Unpub. LEXIS 458 (Ind. Ct.
App. April 8, 2020) (mem.), reh’g denied, trans. denied.. ............ 3a
Appendix C: Conner v. State, 2016 Ind. App. Unpub. LEXIS 804 (Ind. Ct.
App. July 13, 2016) (mem.) ......................................................... 14a

Int
h
e

I
n
d
i
a
n
aS
u
p
r
em
eC
o
u
r
t
M
a
r
cu
sConn
e
r,
App
e
l
l
an
t
(
s
)
,

Cou
r
to
fApp
e
a
l
sC
a
s
e No
.
19APC02106
T
r
i
a
lCou
r
tC
a
s
e No
.
20D031701PC5

v
.
S
t
a
t
eO
fInd
i
an
a,
App
e
l
l
e
e
(
s
)
.

F
I
LED
FILED
S
ep2
42020,
2020
,4:09
4
:09pm
pm
Sep
24

CLERK
C
LERK

Ind
ianaSupreme
Sup
remeCourt
Cou
r
t
Indiana
Cou
r
to
fA
ppea
ls
Court
of
Appeals
andTax
T
axCourt
Cou
r
t
and

O
rd
e
r
Th
i
sm
a
t
t
e
rh
a
scom
eb
e
fo
r
eth
eInd
i
an
aSup
r
em
eCou
r
tonap
e
t
i
t
iontot
r
an
s
f
e
r
ju
r
i
sd
i
c
t
ion
,f
i
l
edpu
r
su
an
ttoInd
i
an
aApp
e
l
l
a
t
eRu
l
e
s56
(B
)and57
,fo
l
low
in
gth
ei
s
su
an
c
eo
fa
d
e
c
i
s
ionbyth
eCou
r
to
fApp
e
a
l
s
.Th
eCou
r
th
a
sr
ev
i
ew
edth
ed
e
c
i
s
iono
fth
eCou
r
to
fApp
e
a
l
s
,
andth
esubm
i
t
t
edr
e
co
rdonapp
e
a
l
,a
l
lb
r
i
e
f
sf
i
l
edinth
eCou
r
to
fApp
e
a
l
s
,anda
l
lm
a
t
e
r
i
a
l
s
f
i
l
edinconn
e
c
t
ionw
i
thth
er
equ
e
s
ttot
r
an
s
f
e
rju
r
i
sd
i
c
t
ionh
av
eb
e
en m
ad
eav
a
i
l
ab
l
etoth
e
Cou
r
tfo
rr
ev
i
ew
.E
a
chp
a
r
t
i
c
ip
a
t
in
g memb
e
rh
a
sh
adth
eoppo
r
tun
i
tytovo
i
c
eth
a
tJu
s
t
i
c
e
’
s
v
i
ew
sonth
ec
a
s
einconf
e
r
en
c
ew
i
thth
eo
th
e
rJu
s
t
i
c
e
s
,ande
a
chp
a
r
t
i
c
ip
a
t
in
gm
emb
e
ro
fth
e
Cou
r
th
a
svo
t
edonth
ep
e
t
i
t
ion
.
B
e
in
gdu
lyadv
i
s
ed
,th
eCou
r
t DEN
IESth
ep
e
t
i
t
iontot
r
an
s
f
e
r
.
Don
ea
tInd
i
an
apo
l
i
s
,Ind
i
an
a
,on __
_
_
_
_
_
_
___.
9
/2
4
/
2
02
0
FORTHECOURT

Lo
r
e
t
t
aH
.Ru
sh
Ch
i
e
fJu
s
t
i
c
eo
fInd
i
an
a

A
l
lJu
s
t
i
c
e
scon
cu
r,ex
c
ep
tRu
sh
,C
.
J
.
,and Go
f
f
,J
.
,whovo
t
etog
r
an
tth
ep
e
t
i
t
iontot
r
an
s
f
e
r
.

2a

Conner v. State
Court of Appeals of Indiana
April 8, 2020, Decided; April 8, 2020, Filed
Court of Appeals Case No. 19A-PC-2106
Reporter
2020 Ind. App. Unpub. LEXIS 458 *; 146 N.E.3d 343

Marcus Conner, Appellant-Petitioner, v.
State of Indiana, Appellee-Plaintiff

Counsel: ATTORNEYS FOR APPELLANT:
Amy E. Karozos, Indiana State Public
Defender; J. Michael Sauer, Deputy
Public Defender, Indianapolis, Indiana.

ATTORNEYS FOR APPELLEE: Curtis T.
Hill, Jr., Attorney General of Indiana;
Notice: PURSUANT
TO
INDIANA Tyler G. Banks, Deputy Attorney
APPELLATE
RULE
65(D),
THIS General, Indianapolis, Indiana.
MEMORANDUM DECISION SHALL NOT
BE REGARDED AS PRECEDENT OR CITED
BEFORE ANY COURT EXCEPT FOR THE Judges: May, Judge. Najam, J., and
PURPOSE
OF
ESTABLISHING
THE Altice, J., concur.
DEFENSE
OF
RES
JUDICATA,
COLLATERAL ESTOPPEL, OR THE LAW OF
THE CASE.
Opinion by: May
PUBLISHED IN TABLE FORMAT IN THE
NORTH EASTERN REPORTER.
Subsequent History: Transfer denied
by Conner v. State, 2020 Ind. LEXIS 779
(Ind., Sept. 24, 2020)

Opinion

MEMORANDUM DECISION
Prior History: [*1] Appeal from the May, Judge.
Elkhart Superior Court. The Honorable
George W. Biddlecome, Senior Judge. P1 Marcus Conner appeals the postTrial Court Cause No. 20D03-1701-PC-5. conviction court's denial of his petition
for post-conviction relief. He raises two
Conner v. State, 59 N.E.3d 1100, 2016
issues for our review, which we revise
Ind. App. Unpub. LEXIS 804 (Ind. Ct.
and restate as: (1) whether his trial
App., July 13, 2016)
counsel was ineffective for failing to
assert his right to a speedy trial under
the
Indiana
and
United
States
3a

2020 Ind. App. Unpub. LEXIS 458, *1

Constitutions, and (2) whether his
appellate counsel was ineffective for not
arguing that there was insufficient
evidence to demonstrate he committed
his offense within 1,000 feet of a youth
program center. We affirm.
Facts and Procedural History
P2 In a memorandum decision affirming
Conner's convictions on direct appeal,
we summarized the facts and course of
proceedings in his criminal case as
follows:
On
September [*2]
19,
2012,
Conner was arrested after he sold
cocaine
to
two
confidential
informants during three separate
controlled buys arranged by the
Elkhart Police Department. Conner
sold the cocaine from his home,
which was located within 1000 feet of
a
youth
program
center.
On
September 24, 2012, the State
charged Conner with three counts of
Dealing in Cocaine, as Class A
felonies,1 and Maintaining a Common
Nuisance, as a Class D felony.2 On
March 26, 2015, the State moved to
amend the charging information to
allege that Conner was a habitual
offender.3
At Conner's initial hearing, a trial
date was set for March 11, 2013.
On the court's own motion, and by an
order dated March 8, 2013, the trial
court vacated the March 11, 2013
trial date due to court congestion and
set a pre-trial conference for April 11,
2013 for the purpose of selecting a
new trial date. On Conner's motion,
1

Ind. Code § 35-48-4-1 (2006).

2

Ind. Code § 35-48-4-13 (2001).

3

Ind. Code § 35-50-2-8 (2005).

the
pretrial
conference
was
continued. At a pre-trial conference
held on May 2, 2013, the trial was
rescheduled for July 15, 2013.
On defendant's motion, and by an
order dated July 12, 2013, the trial
court vacated the July 15, 2013 trial
date, 'with [Indiana Criminal Rule] 4
time chargeable to the Defense'
(App. 149), and scheduled [*3] a
pre-trial conference for July 25,
2013. At the conference, the trial was
rescheduled for August 12, 2013.
On the State's motion, and by an
order dated July 31, 2013, the trial
court vacated the August 12, 2013
trial date due to court congestion. At
a
pre-trial
conference
held
September 5, 2013, the trial was
rescheduled for January 6, 2014.
On the court's motion, and by an
order dated January 2, 2014, the
court again vacated the January 6,
2014 trial date due to court
congestion and set a pre-trial
conference for February 6, 2014. At
the conference, the court set the trial
for March 24, 2014.
The State then filed two more
motions to continue due to court
congestion. By an order dated March
17, 2014, the March 24, 2014 trial
was cancelled and rescheduled for
June 23, 2014. By an order dated
June 19, 2014, the June 23, 2014
trial date also was vacated.
On July 7, 2014, Conner, acting pro
se, sent to the court a motion for
discharge under Indiana Criminal
Rule 4. Conner was represented by
counsel at the time, so the court did
not accept the filing. At a pretrial
conference held July 31, 2014, the
cancelled June 23, 2014 trial was
rescheduled for January 26, 2014

Page 2 of 11

4a

2020 Ind. App. Unpub. LEXIS 458, *3

[sic].

365. Id. at 5. Conner also argued [*5]
the delay violated his constitutional right
On October 23, 2014, Conner to a speedy trial, but we held the
submitted another [*4]
pro se argument was waived because trial
motion for discharge, which the trial counsel did not raise the argument
court again did not accept because below. Id. at 6. We affirmed Conner's
Conner was represented by counsel.
convictions. Id.
On the State's motion, and by an
order dated January 20, 2015, the P4 Conner filed a petition for postcourt rescheduled the January 26, conviction relief pro se on January 23,
2015 trial due to court congestion 2017. On June 27, 2017, the court
and set a pre-trial conference for appointed a public defender to represent
February 26, 2015.
Conner, and Conner filed an amended
At the February 26, 2015 pre-trial petition on November 8, 2018. The
conference, Conner, this time by amended petition alleged ineffective
counsel, filed in open court a motion assistance of both trial counsel and
for discharge under Indiana Criminal appellate counsel. The amended petition
Rule 4. The court heard argument on argued Conner's trial counsel were
the motion. The motion was denied, ineffective because they did not argue
and trial was set for April 6, 2015.
the delay in bringing Conner to trial
On April 6, 2015, the day of trial, violated Conner's right to a speedy trial.
Conner's counsel moved to withdraw The amended petition also argued
his representation due to a conflict of Conner's
appellate
counsel
was
interest. The trial was continued.
ineffective for not arguing there was
A jury trial was held on July 20 and insufficient evidence to prove Conner
21, 2015, and Conner was found sold cocaine within 1000 feet of a youth
guilty as charged. Conner admitted to program center. The post-conviction
being a habitual offender. By orders court held a bifurcated evidentiary
dated August 27 and 28, 2015, the hearing on March 29, 2019, and May 3,
trial court sentenced Conner to an 2019.
aggregate sentence of seventy-two
P5 Conner's trial attorneys, Peter Todd
years.
and Christopher Crawford, as well as
Conner v. State, No. 20A03-1509-CR- Conner's
appellate
counsel,
Mari
1426, 2016 Ind. App. Unpub. LEXIS 804, Duerring, testified at the hearing. Todd
2016 WL 3745924, slip. op. at 1-2 (Ind. initially represented Conner at the trial
Ct. App. July 13, 2016) (footnotes level, but Crawford took over [*6] the
added).
representation of Conner following a
reassignment of responsibilities among
P3 On direct appeal, Conner argued that the Elkhart County public defenders.
he was entitled to discharge under Crawford withdrew his representation
Indiana Criminal Rule 4(C) because two when he discovered a conflict of interest,
of the trial court's findings of court and Todd resumed his representation of
congestion were erroneous. Id. at 2-3. Conner. Todd testified at the hearing on
We held the number of days of delay Conner's petition for post-conviction
chargeable to the State did not exceed relief that even though he was familiar
Page 3 of 11

5a

2020 Ind. App. Unpub. LEXIS 458, *6

with
Criminal
Rule
4
and
the court held
constitutional right to a speedy trial, he
trial counsel's performance cannot be
"didn't contemplate in [Conner's] case
said to have fallen below an objective
that that might be something [he] would
standard of reasonableness when he
file on [Conner's] behalf." (Tr. Vol. II at
chose not to object to the delay in
10.)
this case on constitutional grounds as
well as pursuant to Criminal Rule 4.
P6 Crawford testified that, while he filed
Moreover,
[Conner]
has
not
a motion for discharge under Criminal
demonstrated that had counsel done
Rule 4, he thought he did not also assert
so, the result would have been
Conner's constitutional right to a speedy
different, i.e., he would have been
trial because evidence was not lost as a
discharged or his convictions would
result of the delay. Duerring testified she
have been vacated.
did not raise the issue of whether the
State presented sufficient evidence to (Id. at 138.)
prove Conner dealt cocaine within 1,000
feet of a youth program center on direct P8 The court also found appellate
appeal because she did not think the counsel was not ineffective because
issue was as strong as the arguments Conner's argument that there was
insufficient evidence to show he dealt
she raised.
cocaine within 1,000 [*8] feet of a
P7 On August 30, 2019, the post- youth program center was not supported
conviction court issued an order denying by the record. The court made findings
Conner's petition for post-conviction referencing an Elkhart Police Department
relief
with
findings
of
fact
and officer's testimony during Conner's
conclusions
of
law.
Regarding criminal trial that two Elkhart County
Conner's [*7] claim his trial attorneys Health
Department
buildings
were
were ineffective for failing to adequately located within 1,000 feet of Conner's
assert his constitutional right to a residence and the testimony of both
speedy trial, the court found
Gwen Jaeger and Melanie Sizemore
regarding the programs offered to
the issue of whether [Conner] was children at each of the two Health
entitled to be discharged under the Department buildings.
speedy trial provisions of the United
States and Indiana Constitutions was Discussion and Decision
raised on direct appeal and decided P9 The petitioner for post-conviction
adversely to [Conner]. Accordingly, relief must establish that he is entitled to
as a matter of procedure, this relief by a preponderance of the
argument is res judicata and not evidence. Timberlake v. State, 753
available for review in this [post- N.E.2d 591, 597 (Ind. 2001), reh'g
conviction proceeding].
denied, cert. denied 537 U.S. 839
(App. Vol. II at 134-135) (emphasis in (2002). "Because he is now appealing a
original).
The
court
nevertheless negative judgment, to the extent his
analyzed the delay from the date of appeal turns on factual issues, [the
Conner's arrest to his trial and petitioner] must convince this Court that
determined the delay was justified. The the evidence as a whole leads unerringly
Page 4 of 11

6a

2020 Ind. App. Unpub. LEXIS 458, *8

and unmistakably to a decision opposite
that reached by the post-conviction
court."
Id.
"Where
the
[post[]conviction] court has entered findings of
fact and conclusions of law, we accept
the findings of fact unless clearly
erroneous, but accord no deference [to]
conclusions of law." Turner v. State, 974
N.E.2d 575, 581 (Ind. Ct. App. 2012),
trans. denied. We will reverse the postconviction court's decision only if the
evidence is without conflict and [*9]
leads to a conclusion opposite that
reached by the post-conviction court. Id.
at 581-82.
P10 The Sixth Amendment to the United
States Constitution provides that in all
criminal prosecutions, a defendant is
entitled "to have the assistance of
counsel for his defense." U.S. Const.
amend. VI. Counsel's assistance must be
effective for this constitutional guarantee
to be realized. Strickland v. Washington,
466 U.S. 668, 686, 104 S. Ct. 2052, 80
L. Ed. 2d 674 (1984), reh'g denied.
There is a strong presumption that trial
counsel
provided
effective
representation, and a petitioner must
put forth compelling evidence to rebut
that presumption. McCullough v. State,
973 N.E.2d 62, 74 (Ind. Ct. App. 2012),
trans. denied. "Isolated poor strategy,
inexperience, or bad tactics does not
necessarily
constitute
ineffective
assistance of counsel." Id. Rather, a
petitioner must show that trial counsel's
performance was deficient, and the
petitioner was prejudiced by the
deficiency. Id. at 75.

performance,
meaning
counsel's
representation fell below an objective
standard of reasonableness as gauged
by prevailing professional norms; and
(2) counsel's deficient performance
prejudiced the defendant, i.e., but for
counsel's errors the result of the
proceeding [*10]
would have been
different." Bobadilla v. State, 117 N.E.3d
1272, 1280 (Ind. 2019) (internal citation
omitted). We also apply the Strickland
test when evaluating a claim of
ineffective
assistance
of
appellate
counsel. Hollowell v. State, 19 N.E.3d
263, 269 (Ind. 2014). The petitioner
"must show appellate counsel was
deficient in his or her performance and
that the deficiency resulted in prejudice."
Id.
1. Performance of Trial Counsel
Regarding Conner's Right to a
Speedy Trial

P12 Conner argues his trial attorneys
were ineffective because they failed to
preserve his constitutional right to a
speedy
trial.
The
United
States
Constitution provides: "In all criminal
prosecutions, the accused shall enjoy the
right to a speedy and public trial . . . ."
U.S. Const. amend. VI. Additionally, the
Indiana Constitution provides: "Justice
shall be administered freely, and without
purchase; completely, and without
denial; speedily, and without delay."
Ind. Const. Art. 1, sec. 12. In Barker v.
Wingo, the United States Supreme Court
announced a balancing test for courts to
consider in determining if a criminal
P11 When evaluating a defendant's defendant has been deprived of the right
ineffective-assistance-of-counsel claim, to a speedy trial. 407 U.S. 514, 530, 92
we apply the well-established, two-part S. Ct. 2182, 33 L. Ed. 2d 101 (1972).
Strickland test. "The defendant must The test considers four factors: "Length
prove: (1) counsel rendered deficient of delay, the reason for the delay, the
Page 5 of 11

7a

2020 Ind. App. Unpub. LEXIS 458, *10

defendant's assertion of his right, and
prejudice to the defendant." Id. We use
the Barker factors to [*11] analyze
speedy trial claims asserted under either
the federal or the state constitution.
Sweeney v. State, 704 N.E.2d 86, 102
(Ind. 1998).
P13 Indiana Criminal Rule 4 is meant to
ensure that a defendant receives a
prompt trial, but a Criminal Rule 4
challenge is separate and distinct from a
claimed violation of a defendant's
constitutional right to a speedy trial.
Austin v. State, 997 N.E.2d 1027, 1037
n.7 (Ind. 2013). Criminal Rule 4(A)
limits the amount of time a defendant
may remain in jail awaiting trial. A
defendant may not be held in jail without
trial for a period in excess of six months
unless the defendant moves for a
continuance, the defendant delays the
trial by his own act, or there is not
sufficient time to try the defendant
because
of
court
congestion
or
emergency. Ind. Criminal Rule 4.
Similarly, Criminal Rule 4(C) provides
that a defendant shall not be held to
answer a criminal charge for a period
greater than one year unless the
defendant moves for a continuance, the
defendant delays the trial by his own
act, or there is not sufficient time to try
the
defendant
because
of
court
congestion or emergency. Id. When
evaluating a Criminal Rule 4 motion, we
count the number of days the defendant
has been held to answer a criminal
charge, discount the number of days of
delay attributable to the defendant's
actions and court congestion, and if the
total number of days exceeds the
time [*12] period provided in the rule,
grant the defendant relief. See Curtis v.
State, 948 N.E.2d 1143, 1151 (Ind.
2011) (holding that "because the days

that count toward the Rule 4(C) period
exceed 365, the trial court should have
granted Curtis's motion to dismiss and
discharge").
P14 Initially, Conner challenges the postconviction court's conclusion that his
argument that he was entitled to
discharge pursuant to the speedy trial
provisions of the United States and
Indiana Constitutions is barred by res
judicata because the argument was
raised
on
direct
appeal.
Conner
acknowledges that "[i]f an issue was
raised on direct appeal, but decided
adversely to the petitioner, it is res
judicata." Reed v. State, 856 N.E.2d
1189, 1194 (Ind. 2006). However,
Conner argues we did not consider or
decide whether Conner should have
been discharged pursuant to the speedy
trial provisions of the state and federal
constitutions because we held on direct
appeal that the challenge was waived.
See Conner, slip op. at 6 ("Conner did
not raise his constitutional claims before
the trial court, either in his written
motion for discharge or at the hearing on
the motion. Issues not raised at the trial
level are generally waived on appeal.
Accordingly,
Conner's
constitutional
speedy-trial
claims
are
forfeited.")
(internal
citation
omitted). [*13]
Therefore, Conner maintains, he is not
barred from arguing that he is entitled to
post-conviction relief because his trial
attorneys were ineffective in failing to
preserve the issue for appeal. We agree
that Conner's claim is not barred by res
judicata. See Reed, 856 N.E.2d at 1195
(holding
defendant's
ineffective
assistance of counsel claim was not
barred by res judicata because, although
a sentencing issue was raised on direct
appeal, counsel did not raise argument
that the court could not impose

Page 6 of 11

8a

2020 Ind. App. Unpub. LEXIS 458, *13

consecutive sentences).
A. Length of Delay
P15 Conner argues all four Barker
factors weigh in his favor. He notes the
delay from when charges were filed
against him to when he was tried was
1,029 days.4 The length of the delay
serves as a "triggering mechanism" for a
defendant to assert his speedy trial
right. Barker, 407 U.S. at 530. The
tolerable length of a delay depends on
the nature and circumstances of each
case. Id. at 530-31. Conner points to
Ballentine v. State, in which our Indiana
Supreme Court noted that facially, "and
without considering other factors," a
delay of two-and-one-half years is
"unusually long." 480 N.E.2d 957, 959
(Ind. 1985). Conner also cites Logan v.
State, wherein our Indiana Supreme
Court observed that a delay of over
three-and-one-half years in the [*14]
defendant's case "was considerable,
unfortunate,
and
inexcusable."
16
N.E.3d
953,
962
(Ind.
2014).5
Consequently, the Supreme Court held
the length of the delay weighed heavily
in Logan's favor. Id. Therefore, Conner
contends the post-conviction court
should have weighed heavily in his favor
the length of delay between when
Conner was charged and when he was
tried.
P16 However, as the State points out,
the length of the delay between when

The time between charging and trial was 1,029 days.
However, Conner was incarcerated for 1,034 days
before trial because he was arrested five days before
he was charged.
4

Conner's case and Logan both originated in Elkhart
Superior Court 3.
5

Conner was charged and when he was
tried is not as long as the delay in some
cases where defendants have made
unsuccessful speedy-trial claims. See,
e.g., Barker, 407 U.S. at 533 (a "well
over five year[ ]" delay); O'Quinn v.
Spiller, 806 F.3d 974, 977-79 (7th Cir.
2015) (finding reasonable application of
Barker when state court denied speedytrial claim for forty-two-month delay);
United States v. Oriedo, 498 F.3d 593,
598 (7th Cir. 2007) ("nearly three
years"); Johnson v. State, 83 N.E.3d 81,
87 (Ind. Ct. App. 2017) (1,579-day
delay); Sickels v. State, 960 N.E.2d 205,
221 (Ind. Ct. App. 2012) (nine-year
delay), reh'g denied, aff'd on trans. 982
N.E.2d 1010 (Ind. 2013). But see Logan,
16 N.E.3d at 962 (finding "three-andone-half-year delay" unconstitutional).
Therefore, while the delay in bringing
Conner to trial was lengthy, the delay
was not so long that it violated Conner's
constitutional right to a speedy trial.
B. Reasons for the Delay
P17 The next factor we consider is the
reasons for the delay. We look with
strong disfavor on any attempt by the
State to delay trial [*15] in order to
hamper the defendant's defense. Barker,
407 U.S. at 531. Purportedly neutral
reasons for delay, such as negligence or
overcrowded courts, are weighed less
heavily against the State. Id. However, a
missing witness or some other valid
reason may fully justify delay. Id.
P18 In Logan, the court stated
"[a]though a congested court calendar
weighs less heavily against the State, it
must be viewed as the responsibility of
the government and an impediment to a
defendant's constitutional right to a

Page 7 of 11

9a

2020 Ind. App. Unpub. LEXIS 458, *15

speedy trial." 16 N.E.3d at 963. Conner's
trial was delayed 728 days due to court
congestion, and Conner argues this
delay should weigh against the State.
Additionally, Conner's trial was delayed
105 days because his trial counsel
discovered a conflict of interest on the
day of trial. Conner contends this delay
should also be attributed to the State
because
the
State
could
have
determined there was a conflict of
interest in advance of trial by reviewing
the
dockets
of
the
confidential
informant's criminal cases.
P19 However, Conner puts forth no
authority to support his proposition that
the State should have reviewed the
confidential informant's chronological
case summaries to determine if Conner's
trial counsel had a conflict [*16] of
interest. We decline to impose such a
duty on the State. We also note that
when the court continued Conner's trial
due to court congestion, the court did so
to accommodate older cases. (Prior Case
App. Vol. I at 152 (moved for case
charged in April 2009); 144-45 (moved
for case charged in March 2012); 143
(moved for case charged in September
2010); 139-40 (moved for case charged
in June 2012 and subject to Rule 4(B)
request); 137-38 (moved for case
charged in June 2012); 127-28 (moved
for case charged in September 2011).)
Therefore, while the delays due to court
congestion weigh against the State, we
give this factor slight weight because the
delays were justified. See Wilkins v.
State, 901 N.E.2d 535, 537-38 (Ind. Ct.
App. 2009) (holding defendant's right to
speedy trial was not violated when trial
was continued due to court congestion),
trans. denied.

C. Assertion of Speedy Trial Right
P20 As explained in Barker: "The more
serious the deprivation, the more likely a
defendant
is
to
complain.
The
defendant's assertion of his speedy trial
right, then, is entitled to strong
evidentiary
weight
in
determining
whether the defendant is being deprived
of the right." 407 U.S. at 531-32.
Conner sent five pro se letters or
motions to the trial court while he was
represented by counsel complaining
about the [*17] delay in bringing him
to trial, and Conner's counsel filed a
motion for discharge under Criminal Rule
4 in February 2015. The motion for
discharge asked the court to release
Conner from jail or dismiss the case.
Conner notes the defendant in Logan
objected seven times to the delay in
bringing him to trial, and the Logan
court held that these repeated assertions
weighed in Logan's favor. 16 N.E.3d at
963.6 Conner contends his pro se
assertions should receive the same
weight in the Barker analysis as motions
made by counsel. However, as our

Conner offered the chronological case summary in
Logan and motions Logan filed in the trial court as
Petitioner's Exhibit 4 at the hearing on postconviction
relief. However, the court did not admit the exhibit
into evidence. Conner argues the exhibit "is relevant
to a proper evaluation of Conner's assertion of his
speedy trial right. The post-conviction court abused its
discretion by refusing to admit Petitioner's Exhibit 4
into evidence." (Appellant's Br. at 29.) The trial court
may refuse to admit evidence that is cumulative. The
Pelican, Inc. v. Downey, 567 N.E.2d 847, 850 (Ind. Ct.
App. 1991), trans. denied. Before ruling on the State's
objection to Exhibit 4, the court asked Conner what
the exhibit added to what was said in the Logan
decision. Apparently unsatisfied with Conner's answer,
the court sustained the State's objection. Therefore,
we hold the trial court did not abuse its discretion in
refusing to admit Exhibit 4. See id. at 850 (holding
trial court did not abuse discretion in excluding
cumulative evidence).
6

Page 8 of 11 10a

2020 Ind. App. Unpub. LEXIS 458, *17

Indiana Supreme Court observed in
Underwood v. State, trial courts are "not
required" to respond to pro se requests
or motions when the litigant is
represented by counsel. 722 N.E.2d 828,
832 (Ind. 2000) ("To require the trial
court to respond to both Defendant and
counsel would effectively create a hybrid
representation to which Defendant is not
entitled."), reh'g denied. We also note
that a litigant's pro se requests could
undermine
trial
counsel's
litigation
strategy. Therefore, Conner's assertion
of his constitutional right carries little
weight.

testified evidence was not lost as a
result of the delay. Therefore, this factor
weighs heavily in favor of the State. See
id. (holding prejudice factor weighed
against defendant when his defense was
not impaired).

P22 The length of delay in bringing
Conner to trial was long, but other
defendants have had longer delays
without violating their rights to a speedy
trial. Therefore, [*19] we weigh the
length of the delay in Conner's favor but
afford it little weight. Similarly, we weigh
the substantial delay due to court
congestion only slightly against the
State. We also weigh Conner's assertion
of his speedy trial right slightly in his
D. Prejudice Due to Delay
favor because, while his trial counsel did
P21 The speedy trial right is designed to not
explicitly
raise
Conner's
protect three interests: "(i) to prevent constitutional right to a speedy trial,
oppressive pretrial incarceration; [*18] Conner's counsel did file a motion for
(ii) to minimize anxiety and concern of discharge under Criminal Rule 4.
the accused; and (iii) to limit the However, most significantly, we weigh
possibility that the defense will be the lack of prejudice to Conner as a
impaired." Barker, 407 U.S. at 532. The result of the delay heavily against
most serious of these concerns is the Conner. Having considered all four
possibility the defense may be impaired. Barker factors, we hold that Conner's
Id. Conner argues he was prejudiced by trial attorneys did not perform deficiently
his
lengthy
"oppressive
pretrial because any constitutional challenge to
incarceration." (Appellant's Br. at 30.) the pretrial delay would not have been
He
notes
his
period
of
pretrial successful. See Wingate v. State, 900
incarceration was longer than the N.E.2d 468, 474 (Ind. Ct. App. 2009)
defendant in Logan. 16 N.E.3d at 964 (holding trial counsel did not render
(Conner's 1,034 days as compared to ineffective assistance by not arguing the
Logan's 1,029 days). Conner disagrees State violated Criminal Rule 4(B) when it
with
the
post-conviction
court's filed additional charges).
conclusion that his pretrial incarceration
"although lengthy, is clearly explainable
and justified." (App. Vol. II at 138.) 2. Performance of Appellate Counsel
However, Conner puts forth no assertion
of prejudice beyond the fact of his P23 Conner argues his appellate counsel
incarceration. See Johnson, 83 N.E.3d at was ineffective because she "failed to
87 ("The burden is on the defendant to recognize that despite evidence of youth
show actual prejudice to prove a speedy program centers within 1,000 feet of the
trial deprivation."). In fact, Crawford offenses at the time of trial in 2015,
Page 9 of 11 11a

2020 Ind. App. Unpub. LEXIS 458, *19

there was no evidence of youth program
centers at these locations at the time of
the
offenses [*20]
in
2012."
(Appellant's Br. at 33.) He argues the
only evidence that a youth program
center operated within 1,000 feet of
Conner's house in 2012 was hearsay,
which the trial court admonished the
jury not to consider.

occurred on July 20 and 21, 2015.
Melanie
Sizemore
testified
during
Conner's jury trial. She was an employee
of Healthy Beginnings, a division of the
Elkhart County Health Department,
located at 1400 Hudson Street in
Elkhart, Indiana.

P26 Conner challenges the postconviction court's finding that the State
P24 Claims of ineffective assistance of "question[ed] Ms. Sizemore about her
appellant counsel generally fall into three knowledge of the hours of operation in
categories: "(1) denying access to 2012, [sic] and established a business
appeal; (2) waiver of issues; (3) failure records exception to the hearsay
to present issues well." Harrison v. objection." (App. Vol. II at 161.) Conner
on
hearsay
grounds
to
State, 707 N.E.2d 767, 786 (Ind. 1999). objected
Appellate counsel is expected to present Sizemore's testimony about Healthy
the issues on appeal most likely to result Beginnings' hours of operation in 2012.
in a reversal, and we show strong The court sustained Conner's objection
deference
to
appellate
counsel's and admonished the jury. While the
asked
Sizemore
additional
strategic decision of which issues to State
bring. Walker v. State, 988 N.E.2d 1181, questions to try to establish that her
1191 (Ind. Ct. App. 2013), trans. testimony fell within the business
denied. "In evaluating whether appellate records exception to the hearsay rule,
counsel performed deficiently by failing Conner contends such efforts were
to raise an issue on appeal, we apply the insufficient.
following test: (1) whether the unraised
However,
we
note
the
issue is significant and obvious from the P27
uncorroborated
testimony
of
a
single
face of the record and (2) whether the
unraised issue is 'clearly stronger' than witness can sustain a conviction. Bailey
the raised issues." Id. (quoting Henley v. v. State, 979 N.E.2d 133, 135 (Ind.
Notwithstanding
Sizemore's
State, 881 N.E.2d 639, 644 (Ind. 2012).
testimony,
Conner's
proposed
sufficiency
2008)).
argument fails because of the testimony
P25 Conner maintains the absence of of Gwen Jaeger, manager of the nursing
evidence regarding youth program division for [*22] the Elkhart County
centers in 2012 was significant and Health Department building at 608
obvious from the face of the record, and Oakland Avenue in Elkhart. The building
the issue was clearly stronger than the housed an immunization clinic, a lead
issues raised on direct appeal by poison prevention program for small
Conner's appellate counsel. Conner sold children, and other services. The clinic
cocaine
in [*21]
three
separate served both children and adults. Jaeger
controlled buys between August 31 and testified the clinic was open Monday
September 19, 2012.7 Conner's jury trial
7

The trial court took judicial notice that one of the

controlled buys occurred on a Friday, and the other
two controlled buys occurred on Wednesdays.

Page 10 of 1112a

2020 Ind. App. Unpub. LEXIS 458, *22

through
Friday
and
approximately
twenty to thirty children would visit the
clinic per day. The State asked Jaeger:
[State:] So, Miss Jaeger, would
children have been present at 608
Oakland Avenue on Friday, August
31st, at around 11:00 a.m.?
[Jaeger:] I would say, yeah.
[State:] Okay. What about on
Wednesday, September 5th of 2012,
about 1:30 p.m.?
[Jaeger:] Yeah. We're not closed for
lunch, so yeah. Yes.
[State:] How about Wednesday,
September 19th, 2012, at 1:45 p.m.?
[Jaeger:] Yes.
(Prior Case Tr. Vol. II at 256.) Conner
attempts to discredit this testimony by
arguing there is no evidence in the
record that Jaeger worked at the
Oakland Avenue clinic in 2012. He also
contends Jaeger's use of the present
tense demonstrates she was testifying
as to the hours of operation at time of
trial rather than at the time of offense.
However, these arguments would not
have been successful on direct appeal
because they are [*23] requests for us
to reweigh the evidence. See Schath v.
State, 2 N.E.3d 136, 138 (Ind. Ct. App.
2014) ("appellate courts do not reweigh
the evidence or assess the credibility of
the witnesses"). Therefore, we hold
Conner's appellate counsel did not
perform deficiently when she chose not
to raise a meritless argument. See
Garrett v. State, 992 N.E.2d 710, 72425 (Ind. 2013) (holding appellate
counsel did not perform deficiently by
not raising weak double jeopardy
argument on direct appeal).

constitutional speedy trial objection to
the delay in bringing Conner to trial. The
delay was justified, and Conner's
defense was not prejudiced as a result of
the delay. Also, Conner's appellate
counsel did not perform deficiently by
failing to raise a sufficiency argument on
direct appeal because such argument
would not have been successful.
Therefore, we affirm the trial court's
denial of Conner's petition for postconviction relief.
P29 Affirmed.
Najam, J., and Altice, J., concur.
End of Document

Conclusion
P28 Conner's trial attorneys did not
perform deficiently by failing to raise a
Page 11 of 1113a

Conner v. State
Court of Appeals of Indiana
July 13, 2016, Decided; July 13, 2016, Filed
Court of Appeals Case No. 20A03-1509-CR-1426
Reporter
2016 Ind. App. Unpub. LEXIS 804 *; 59 N.E.3d 1100

Marielena Duerring, South Bend,
Indiana.
Marcus T. Conner, Appellant-Defendant,
v. State of Indiana, Appellee-Plaintiff

ATTORNEYS FOR APPELLEE: Gregory F.
Zoeller, Attorney General of Indiana;
Angela N. Sanchez, Deputy Attorney
General, Indianapolis, Indiana.

Notice: PURSUANT
TO
INDIANA
APPELLATE
RULE
65(D),
THIS
MEMORANDUM DECISION SHALL NOT Judges: Bailey, Judge. Bradford, J., and
BE REGARDED AS PRECEDENT OR CITED Altice, J., concur.
BEFORE ANY COURT EXCEPT FOR THE
PURPOSE
OF
ESTABLISHING
THE
DEFENSE
OF
RES
JUDICATA, Opinion by: Bailey
COLLATERAL ESTOPPEL, OR THE LAW OF
THE CASE.
PUBLISHED IN TABLE FORMAT IN THE
NORTH EASTERN REPORTER.

Opinion

Subsequent History: Post-conviction
relief denied at Conner v. State, 2020
Ind. App. Unpub. LEXIS 458 (Ind. Ct.
App., Apr. 8, 2020)

MEMORANDUM DECISION
Bailey, Judge.
Case Summary

P1 Marcus T. Conner ("Conner") appeals
Prior History: [*1] Appeal from the
his convictions for three counts of
Elkhart Superior Court 3. The Honorable
Dealing in Cocaine, as Class A felonies,1
Teresa L. Cataldo, Judge. Trial Court
and Maintaining a Common Nuisance, as
Cause No. 20D03-1209-FA-63.
a Class D felony.2 We affirm.

Ind. Code §§ 35-48-4-1-(a)(1)(C) & (b)(3)(B)(iv)
(2008).
1

Counsel: ATTORNEY FOR APPELLANT:

2

I.C. § 35-48-4-13(b)(2)(B).

14a

2016 Ind. App. Unpub. LEXIS 804, *1

P6 On defendant's motion, and by an
order dated July 12, 2013, the trial court
vacated the July 15, 2013 trial date,
"with [Indiana Criminal Rule] 4 time
chargeable to the Defense" (App. 149),
and scheduled a pre-trial conference for
July 25, 2013. At the conference, the
trial was rescheduled for August 12,
2013.

Issues

P2 Conner presents two issues for our
review, which we restate as:
I. Whether two of the trial court's
findings of court congestion were
clearly erroneous; and
II. Whether Conner waived his
constitutional speedy-trial claims by
failing to raise them before the trial
P7 On the State's motion, and by an
court.
order dated July 31, 2013, the trial court
Facts and Procedural History
vacated the August 12, 2013 trial date
P3 On September 19, 2012, Conner was due to court congestion. [*3] At a prearrested after he sold cocaine to two trial conference held September 5, 2013,
confidential informants during three the trial was rescheduled for January 6,
separate controlled buys arranged by the 2014.
Elkhart Police Department. Conner sold
P8 On the court's motion, and by an
the cocaine from his home, which was
order dated January 2, 2014, the court
located within 1000 feet of a youth
again vacated the January 6, 2014 trial
program center. [*2] On September
date due to court congestion and set a
24, 2012, the State charged Conner with
pre-trial conference for February 6,
three counts of Dealing in Cocaine, as
2014. At the conference, the court set
Class A felonies, and Maintaining a
the trial for March 24, 2014.
Common Nuisance, as a Class D felony.
On March 26, 2015, the State moved to P9 The State then filed two more
amend the charging information to motions to continue due to court
allege that Conner was a habitual congestion. By an order dated March 17,
offender.3
2014, the March 24, 2014 trial was
cancelled and rescheduled for June 23,
2014. By an order dated June 19, 2014,
the June 23, 2014 trial date also was
P5 On the court's own motion, and by an vacated.
order dated March 8, 2013, the trial
P10 On July 7, 2014, Conner, acting pro
court vacated the March 11, 2013 trial
se, sent to the court a motion for
date due to court congestion and set a
discharge under Indiana Criminal Rule 4.
pre-trial conference for April 11, 2013
Conner was represented by counsel at
for the purpose of selecting a new trial
the time, so the court did not accept the
date. On Conner's motion, the pre-trial
filing. At a pretrial conference held July
conference was continued. At a pre-trial
31, 2014, the cancelled June 23, 2014
conference held on May 2, 2013, the
trial was rescheduled for January 26,
trial was rescheduled for July 15, 2013.
2014.
P4 At Conner's initial hearing, a trial date
was set for March 11, 2013.

3

I.C. § 35-50-2-8.

P11 On October 23, 2014, Conner
submitted another pro se motion for
Page 2 of 8

15a

2016 Ind. App. Unpub. LEXIS 804, *3

discharge, which the trial court again did
not
accept
because
Conner
was
represented by counsel.
P12 On the State's motion, and by an
order dated January 20, 2015, the court
rescheduled the January 26, 2015 trial
due [*4] to court congestion and set a
pre-trial conference for February 26,
2015.
P13 At the February 26, 2015 pre-trial
conference, Conner, this time by
counsel, filed in open court a motion for
discharge under Indiana Criminal Rule 4.
The court heard argument on the
motion. The motion was denied, and trial
was set for April 6, 2015.

distinct' from our review of claimed
violations of the speedy trial rights
secured by the" U.S. and Indiana
Constitutions. [*5] Id. at 958. Where
an appellant challenges the timeliness of
his trial on both grounds, "we ordinarily
begin our analysis with [Criminal Rule]
4." Sweeney v. State, 704 N.E.2d 86, 99
(Ind. 1998).
Criminal Rule 4

P18 Conner first contends he was
entitled to discharge under Indiana
Criminal Rule 4(C).4 The goal of Criminal
Rule 4 is to effectuate "a criminal
defendant's
fundamental
and
constitutionally protected right to a
P14 On April 6, 2015, the day of trial,
speedy trial." Austin v. State, 997
Conner's counsel moved to withdraw his
N.E.2d 1027, 1037 (Ind. 2013). The rule
representation due to a conflict of
"'provides that a defendant may not be
interest. The trial was continued.
held to answer a criminal charge for
P15 A jury trial was held on July 20 and greater than one year unless the delay is
21, 2015, and Conner was found guilty caused by the defendant, emergency, or
as charged. Conner admitted to being a
habitual offender. By orders dated
August 27 and 28, 2015, the trial court 4 Criminal Rule 4(C) states:
sentenced Conner to an aggregate
No person shall be held on recognizance or
sentence of seventy-two years.
otherwise to answer a criminal charge for a period
P16 Conner now appeals his convictions.
Discussion and Decision
P17 Although "Indiana Criminal Rule 4
generally implements the constitutional
right of a criminal defendant to a speedy
trial," Bridwell v. State, 659 N.E.2d 552,
553 (Ind.1995), "the protections of Rule
4(C) are not co-extensive with the
protections guaranteed by the Sixth
Amendment [to the U.S. Constitution]
and Article 1, Section 12" of the Indiana
Constitution. Logan v. State, 16 N.E.3d
953, 961 (Ind. 2014). Thus, "our review
of Rule 4 challenges is 'separate and

in aggregate embracing more than one year from
the date the criminal charge against such
defendant is filed, or from the date of his arrest
on such charge, whichever is later; except where
a continuance was had on his motion, or the delay
was caused by his act, or where there was not
sufficient time to try him during such period
because of congestion of the court calendar;
provided, however, that in the last-mentioned
circumstance, [*6]
the prosecuting attorney
shall file a timely motion for continuance as under
subdivision (A) of this rule. Provided further, that
a trial court may take note of congestion or an
emergency without the necessity of a motion, and
upon so finding may order a continuance. Any
continuance granted due to a congested calendar
or emergency shall be reduced to an order, which
order shall also set the case for trial within a
reasonable time. Any defendant so held shall, on
motion, be discharged.

Page 3 of 8

16a

2016 Ind. App. Unpub. LEXIS 804, *6

before Conner filed his motion for
discharge on February 26, 2015. On five
occasions, the trial court, either on its
own or the State's motion, issued an
order vacating the trial date due to court
congestion.6
Conner
requested
a
continuance of the July 15, 2013 trial.7
Conner also requested a continuance of
a pre-trial conference that was set for
P19 Under Criminal Rule 4(C), the time the purpose of selecting a new trial
period begins "from the date the criminal date.8 Because these delays were caused
charge against such defendant is filed, or by court congestion or Conner, none of
from the date of his arrest on such this time is charged to the State.
charge, whichever is later[.]" Crim R.
4(C). Delays caused by emergency or P22 In sum, of the 885 days from
court congestion do not count toward charging (September 24, 2012) to the
the one-year period. Crim R. 4(C). In date on which Conner filed a motion for
addition, delays caused by the defendant discharge (February 26, 2015), only 165
extend the Rule 4(C) one-year time days were attributable to the State for
period. Crim. R. 4(F). "In the end, Criminal Rule 4(C) purposes.9 Because
tacking on additional time to the one- the number of days chargeable to the
year period and excluding days from the State does not exceed 365, Conner was
one-year period are one and the same." not entitled to discharge under Criminal
Curtis, 948 N.E.2d at 1150. Thus to Rule 4(C).
analyze a claim under Criminal Rule
4(C), we determine whether the time not P23 On appeal, Conner argues that two
attributable to the defendant's delays, of the trial court's findings of congestion
court congestion, or emergency exceeds were erroneous, that the time should
have been charged to the State, and
365 days. Id.
thus he was entitled to discharge. We
P20 In this case, the State filed charges review a trial court's factual finding of
on September 24, 2012. Conner's trial court congestion or emergency for clear
was originally [*7] scheduled for March
11, 2013, but on March 8, 2013 the
6
court on its own motion vacated the trial In addition to the original March 11, 2013 trial date,
the trial dates vacated due to court congestion were:
date due to court congestion. Therefore, August 12, 2013; January 6, 2014; March 24, 2014;
the 165 days from September 24, 2012 June 23, 2014; and January 26, 2015.
to March 8, 2013, are charged to the 7
Conner's April 6, 2015 trial date was also continued
State for the purposes of Criminal Rule when his counsel moved to withdraw due to a conflict
4.5
of interest. However, [*8] this continuance occurred
court congestion.'" Curtis v. State, 948
N.E.2d 1143, 1148-49 (Ind. 2011)
(quoting Pelley v. State, 901 N.E.2d 494,
497 (Ind. 2009)). The focus of Criminal
Rule 4 is not fault, but to ensure early
trials. Id. at 1151. The rule places an
affirmative duty on the State to bring a
defendant to trial. Id.

P21 Thereafter, Conner's trial date was
vacated and rescheduled six more times

after Conner filed his motion for discharge, and in any
case, Conner does not argue the delay should be
charged to the State.
The pre-trial conference originally was scheduled for
April 11, 2013 and held May 2, 2013.
8

Conner contends this
calculations show 165.
5

is

162

days,

but

our

In total, 1029 days elapsed between charging
(September 24, 2012) and trial (July 20, 2015).
9

Page 4 of 8

17a

2016 Ind. App. Unpub. LEXIS 804, *8

error. Austin, 997 N.E.2d at 1040.10
Upon appellate review, a trial court's
finding
of
congestion
will
be
presumed valid and need not be
contemporaneously
explained
or
documented by the trial court.
However, a defendant may challenge
that finding, by filing a Motion for
Discharge
and
demonstrating
that, [*9] at the time the trial court
made its decision to postpone trial,
the finding of congestion was
factually or legally inaccurate. Such
proof would be prima facie adequate
for discharge, absent further trial
court
findings
explaining
the
congestion
and
justifying
the
continuance. In the appellate review
of such a case, the trial court's
explanations
will
be
accorded
reasonable
deference,
and
a
defendant
must
establish
his
entitlement to relief by showing that
the trial court was clearly erroneous.
Clark v. State, 659 N.E.2d 548, 552
(Ind. 1995).
P24 First, Conner argues that the court
erred in vacating the August 12, 2013
trial date because the parties agreed to
the date during a pre-trial conference
held on July 25, 2013, but shortly after,
on July 31, 2013, the court granted the
State's July 29, 2013 motion to vacate
the trial date due to court congestion.
According to Conner, "[i]t strains logic
and common sense to decipher how both
the trial court . . . and the State . . .

Although Austin concerned Criminal Rule 4(B),
Criminal Rules 4(A) and 4(C) also provide for
continuance due to a congested calendar or
emergency. Therefore, "analysis in the context of
Criminal 4(B) should apply with equal force to Criminal
Rules 4(A) and 4(C)." Austin, 997 N.E.2d at 1038 n.8.
10

could on July 25th agree to set Conner's
trial on August 12 and [*10] then just
four (4) days later, the same deputy
prosecutor successfully files a motion to
continue that trial date due to court
congestion." (Appellant's Br. 8.) Conner
argues that the timing of the State's
motion renders the August 12, 2013 trial
setting "meaningless," and therefore the
delay from the time of the State's
motion to continue (July 29, 2013) to
the next trial date (January 6, 2014)
should be chargeable to the State.11
P25 The court's order vacating the
August 12, 2013 trial date states only
that the "court finds that this case is not
likely to proceed due to congestion of
the Court's calendar . . . ." (App. 144.)
The
corresponding
entry
on
the
Chronological Case Summary ("CCS")
provides more detail, revealing that
"[t]he first priority setting [*11] on
August 12, 2013 is State of Indiana
versus Kenneth L. Johnson, Cause No.
20D03-1203-FA-17."
(App.
12.)
However, Conner did not object to the
State's motion for continuance or
otherwise challenge the court's order.12
Conner's brief is inconsistent: he contends that the
delay should be calculated from the time the State's
motion to continue was filed (July 29, 2013) to the
next trial date (January 6, 2014), but later defines the
time period as between July 31, 2013 (the date of the
court's order vacating the trial date) and January 2,
2014 (the court's next finding of congestion). At most,
the period from July 29, 2013 to January 6, 2014 is
161 days.
11

Eighteen months later, Conner eventually filed a
motion for discharge on February 26, 2015, which did
not challenge the factual accuracy of any of the court's
findings of congestion. At the hearing on the motion,
in response to the prosecuting attorney's argument
that Conner had not challenged the court's findings,
Conner's counsel argued:
12

I believe on a number of those occasions [when
Conner's case was continued], either of those

Page 5 of 8

18a

2016 Ind. App. Unpub. LEXIS 804, *11

I do realize that [Conner] was
Accordingly, the record concerning the
congested out the last time due to
trial court's finding was not further
another
matter
that
was
developed. The record shows Conner's
apparently [*13] scheduled for trial
trial date was vacated because another
at the same time as his trial. I do
case scheduled for trial that day had
believe that that case may have been
priority. Absent further evidence that the
my case, and I believe it was
finding
was
factually
or
legally
ultimately pled out the - - if I
inaccurate, "a trial court's finding of
remember correctly - - the morning
congestion will be presumed valid . . . ."
of trial in connection with that
Clark, 659 N.E.2d at 552. Conner has
matter.
not shown the court's finding of
congestion was clearly erroneous merely (Discharge Tr. 4) (emphases added). By
statement,
Conner's
counsel
by alleging on appeal that the timing of this
appears to have represented to the court
the State's motion was suspect.
that the finding of congestion was
P26 Conner next argues that the trial factually accurate when it was made on
court erred in vacating the January 26, January 20, 2015 because the priority
2015 trial date. For that date, the State case was not resolved until January 26,
moved to continue, and the court's 2015.
order, dated January 20, 2015, again
stated that the "court finds that this case P28 Conner now argues that the court's
is not likely to proceed due to congestion finding of congestion was erroneous
of the Court's calendar . . . ." (App. because on January 16, 2015 — one day
127.) The corresponding CCS entry after the State's motion to continue was
elaborates that "[t]he first priority filed — the Macias case was continued to
setting on January 26, 201[5] is State of another date. In support, Conner has
Indiana versus Jose Jesus Macias, Cause submitted the CCS from the Macias case
as an addendum to his appellate brief
No. 20D03-1109-FA-00026." (App. 15.)
and asks us to take judicial notice of the
P27 At the pre-trial hearing held to CCS under Indiana Evidence Rule 201.
reschedule the January 26, 2015 trial
date, Conner filed in open court a motion P29 It is axiomatic that appellate review
for discharge. However, in the written of the factfinder's assessment is limited
motion, Conner did not challenge the to those matters contained in the record
factual accuracy of the court's finding of that were presented to and considered
congestion. In fact, regarding the by the factfinder. Dollar Inn, Inc. v.
January 26, 2015 trial date, Conner's Slone, 695 N.E.2d 185, 188 (Ind. Ct.
App. 1998), trans. denied. "On appeal,
counsel stated:
judicial notice may not be used to fill
evidentiary gaps." Id.
cases [the cases with higher priority] did [*12]
not go. I don't - - I don't specifically have the
documentation concerning which cases did go on
particular days.

(Discharge Tr. 6-7.) However, Conner never pointed to
specific dates or presented evidence to show which of
the court's findings of congestion were allegedly
erroneous.

P30 By submitting the CCS, Conner
seeks to present evidence that [*14]
should have been presented first to the
trial court. We decline Conner's attempt
to fill an evidentiary gap, and we will not

Page 6 of 8

19a

2016 Ind. App. Unpub. LEXIS 804, *14

review the Macias CCS on appeal. The
purpose of presenting such evidence first
to the trial court is to allow the court to
make further "findings explaining the
congestion
and
justifying
the
continuance." Clark, 659 N.E.2d at 552.
Perhaps when presented with evidence
that the case with first priority on
January 26, 2015 had been rescheduled,
the court could have shown that another
case with priority over Conner's still
justified a finding of congestion. That is,
even if the Macias case was rescheduled
prior to January 26, 2015, it does not
necessarily follow that Conner's case was
the next case in line. By failing to
present to the trial court evidence to
support his claim, Conner deprived the
court of an opportunity to respond and
further develop the record. Absent
evidence to the contrary, we presume
the court's finding of congestion was
valid. Accordingly, Conner has failed to
show that the court's finding of
congestion on January 26, 2015 was
clearly erroneous.
P31 We acknowledge that a 1029-day
delay
from
charging
to
trial
is
extraordinarily — and disconcertingly —
long.13 As our [*15] supreme court has
repeatedly cautioned, court congestion
"is not a blank check for poor judicial
administration." Logan, 16 N.E.3d at
961; Austin, 997 N.E.2d at 1043. Still,
Conner acquiesced in many of the
continuances and failed to timely
challenge
the
court's
findings
of
congestion. Additionally, Conner did not
file a motion for early trial under
Criminal Rule 4(B), which may have
entitled him to priority over other

Conner contends the delay was 1018 days, but
again our calculation comes in a little higher.
13

cases.14
P32 Because the number of days
chargeable to the State did not exceed
365, Conner was not entitled to
discharge under Indiana Criminal Rule
4(C).
Constitutional Claims
P33 Conner next argues that a 1029-day
delay from charging to trial violated his
rights to a speedy trial under the U.S.
and Indiana Constitutions. The Sixth
Amendment to the U.S. Constitution
provides, in part: "In all criminal
prosecutions, [*16] the accused shall
enjoy the right to a speedy and public
trial . . . ." Article 1, Section 12 of the
Indiana Constitution provides, in part:
"Justice shall be administered freely, and
without purchase; completely, and
without denial; speedily, and without
delay."
P34 As an initial matter, the State
argues
that
Conner
waived
his
constitutional claims because he raises
them for the first time on appeal. In
support, the State cites Curtis, in which
the Indiana Supreme Court held that an
appellant forfeited his constitutional
speedy-trial claim where the issue was
not presented to the trial court but first
raised on interlocutory appeal. 948
N.E.2d at 1147-48. The court reasoned
that "[t]o hold otherwise would allow a
Conner's counsel stated at the discharge hearing
that "[w]e had not necessarily made a formal motion
in regards for an early trial because of the issue that
that may preclude any argument in regards to the
motion for discharge." (Discharge Tr. 3-4.) Counsel
reiterated that he did not pursue a Criminal Rule 4(B)
motion "because I did not want to lose this potential
appealable issue in connection with this case."
(Discharge Tr. 4.)
14

Page 7 of 8

20a

2016 Ind. App. Unpub. LEXIS 804, *16

party to circumvent the well-established
rule that issues must be raised before
the trial court or are unavailable on
appeal." Id. at 1148 (citing Pigg v. State,
929 N.E.2d 799, 803 (Ind. Ct. App.
2010), trans. denied).
P35
Although
Curtis
involved
an
interlocutory appeal, we find the court's
reasoning
equally
applicable
here.
Conner did not raise his constitutional
claims before the trial court, either in his
written motion for discharge or at the
hearing on the motion. Issues not raised
at the trial level are generally waived on
appeal. See id. Accordingly, Conner's
constitutional speedy-trial claims are
forfeited. [*17]
Conclusion
P36 Conner was not entitled to discharge
under Indiana Criminal Rule 4. Conner's
constitutional speedy-trial claims are
waived.
P37 Affirmed.
Bradford, J., and Altice, J., concur.
End of Document

Page 8 of 8

21a

